No.

3fn the Supreme Court of the @lnite States
PATRICK EMANUEL SUTHERLAND,

Petitioner,
V.

UNITED STATES OF AMERICA

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Barry J. Pollack, a member of
the Bar of this Court, certify that the Petition for a Writ of Certiorari of Patrick
Emanuel Sutherland in the above-captioned case contains 8,992 words, excluding
the parts of the brief that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 30th day of September, 2019.

